HHS/OIG-Audit--"Impact on the Employee Retirement Income Security Act Full Funding Limitation on Medicare Contractor's Funding of Pension Costs, (A-07-93-00684)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Impact of the Employee Retirement Income Security Act Full Funding Limitation
on Medicare Contractor's Funding of Pension Costs," (A-07-93-00684)
December 27, 1993
Complete Text of Report is available in PDF format
(936 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that two Medicare contractors, in an attempt to
protect the allowability of pension costs for future Medicare reimbursement,
used paper transfers of pension assets from other lines of business to fund
the Medicare pension segment. Such transfers do not constitute funding and are
unacceptable in meeting Federal funding requirements. The two contractors concurred
with our recommended removal of the paper transfers from the Medicare segments.
We recommended that the Health Care Financing Administration (HCFA) require
similar action for other contractors that executed paper transfers in an attempt
to fund pension costs. The HCFA concurred with our recommendation.